AMERICAN METEOROLOGICAL SOCIETY
        Boston, Massachusetts



     Financial and Compliance Audit
                    of
              Indirect Costs
          For the Years Ended
    December 31, 1998, 1999 and 2000




                          M.D. Oppenheim & Company, P.C.
                                Certified Public Accountants
                            485 U.S. Highway 1, Building C
                             Iselin, New Jersey 08830-4100
	




                          AMERICAN METEOROLOGICAL SOCIETY

                                          Table of Contents

                                                                                  Page

    Acronyms                                                                        1

    Section I - Introduction and Audit Results
           Background                                                              3
           Objective and Scope of Audit                                            3
           Summary of Audit Results                                                5
           Exit Conference                                                         8

    Section II - Findings and Recommendations
           Independent Auditors' Report on Compliance and Internal Control        10
           Findings and Recommendations on Compliance                             12
           Findings and Recommendations on Internal Control                       20

    Section III - Financial Schedules
           Independent Auditors' Report                                           24
           Financial Schedules:
            Schedule A - Schedule of Over/(Under) Recovered Indirect Costs on
               National Science Foundation Awards                                 26
            Schedules B-1 to B-3 - Schedule of Indirect/Direct Costs              27
            Schedule C, C-1 to C-6 - Schedule of Auditors' Adjustments
                and Eliminations                                                  33
           Notes to Financial Schedules                                           42

    Section IV - Supplementary Information
           Independent Auditors' Report on Supplementary Information              44
           Schedule D-1 to D- 10 - Detailed Schedules of Over/(Under) Recovered
              Indirect Costs by NSF Award                                         45
           Schedule E- Listing of NSF Awards Active During Audit Period Not
              Affected by Indirect Cost Audit                                     55

    Section V - Awardee's Response                                                56
           AMERICAN METEOROLOGICAL SOCIETY
                       Acronyms


Acronym   Explanation of Acronym

AICPA     American Institute of Certified Public Accountants

 AMS      American Meteorological Society

 CPO      Division of Contract, Policy and Oversight

 DGA      Division of Grants and Agreements

 FCTR     Federal Cash Transactions Report

MTDC      Modified Total Direct Costs

 NSF      U.S. National Science Foundation

 OIG      Office of Inspector General

 OMB      Office of Management and Budget




                                                               1
        SECTION I

INTRODUCTION AND AUDIT RESULTS




                                 2
                                     SECTION I -
                           INTRODUCTION AND AUDIT RESULTS

                                      BACKGROUND

       The American Meteorological Society (AMS), founded in 1919, is a not-for-profit,
tax exempt, scientific and professional society. Interdisciplinary in scope, AMS actively
promotes the development and dissemination of information on the atmospheric and related
oceanic and hydrological sciences. AMS has its headquarters in Boston, Massachusetts and
also maintains an office in Washington, D. C., where most federal research occurs. AMS has
more than 11,000 members from the United States, and currently publishes ten scientific
journals. In addition, AMS organizes national and international meetings, specialized
conferences, symposia, and workshops.

       AMS generates approximately $11 million of annual revenues, mainly from journals,
meetings and exhibits, federal financial assistance and other member services. Of about $11
million of annual revenues, federal financial assistance approximates $1.5 million. The
National Science Foundation (NSF) provides the most significant portion of the federal
financial assistance to AMS and is its cognizant federal audit agency.

                          OBJECTIVE AND SCOPE OF AUDIT

        At the request of the NSF Office of the Inspector General (OIG), M. D. Oppenheim
& Company, P.C. conducted a financial and compliance audit of the indirect cost proposals
prepared by AMS for the years ended December 31, 1998, 1999, and 2000 to determine final
i ndirect cost rates for those years. During the period of our audit there were ten NSF awards
that included indirect costs based on a predetermined rate specified in the award letter and/or
award budget. Our audit objectives were: (1) to determine whether AMS complied with
federal requirements in computing its indirect cost proposals; (2) to determine whether AMS
over or under-recovered indirect costs on each NSF award active during the audit period,
based upon audit-determined indirect cost rates; and (3) to evaluate the adequacy of AMS's
internal controls to administer, account for, and monitor indirect cost charges to federal
awards.

       To accomplish the objectives of the audit, we:

   •   Conducted an on-site audit survey with sufficient observations, interviews, and
       examinations of documents to make an initial determination whether predetermined
       rates were based on allowable indirect costs and whether controls to administer,
       account for, and monitor indirect costs are adequate to ensure compliance with federal
       cost principles and administrative requirements.

   •   Prepared an audit planning document for OIG review and approval. The planning
       document included a description of AMS's organizational structure and the process
       used to administer, account for, and monitor indirect cost charges to federally
       sponsored awards. As part of the planning process we performed an assessment of
       audit risk and obtained an understanding of AMS's control environment.

                                                                                             3
   •   Prepared an internal control audit planning document for OIG review and approval.
       The internal control planning document included the proposed audit
       programs/procedures for testing the significant internal controls necessary to
       accurately administer, account for, and charge indirect cost charges to federally
       sponsored awards. As part of the internal control process, we assessed the internal
       controls in the areas of control environment, risk assessment, information and
       communication, monitoring and control activities.

   •   Prepared a substantive audit testing planning document for OIG review and approval.
       The substantive planning document included the preliminary results of the internal
       control phase of the audit, including findings and recommendations, and the proposed
       audit program, which included tests on compliance with applicable laws and
       regulations and substantive testing procedures to be applied to the indirect cost pools
       and the direct cost base.

   •    Performed testing procedures to determine whether the indirect cost proposals and the
        resultant indirect cost rates comply with OMB Circulars A-110, Uniform
       Administrative Requirements for Grants and Agreements with Institutions of Higher
       Education, Hospitals and Other Nonprofit Organizations, and A-122, Cost Principles
       for Non-Profit Organizations.

       We conducted our audit in accordance with AICPA auditing standards generally
accepted in the United States of America, the Controller General's Government Auditing
Standards and the provisions of the NSF Grant Policy Manual, and included tests of the
accounting records and other auditing procedures that we considered necessary to fully
address the audit objectives.




                                                                                            4
                            SUMMARY OF AUDIT RESULTS


        We noted compliance deficiencies and internal control weaknesses resulting in the
over-recovery of indirect costs totaling $240,245, or 30 percent of total claimed indirect
costs, on ten NSF awards over the three year period ending December 31, 2000. Some of
these deficiencies and internal control weaknesses could affect future indirect cost rates as
well. More specifically, we found five instances of non-compliance, four of which
constituted material non-compliance and one which constituted non-material non-
compliance:

Material Non-Compliance

•   AMS misclassified $1.4 million of direct program costs as indirect costs. These direct
    costs consisted of AMS support for projects integral to its program mission to promote
    the "development and dissemination of information and education on the atmospheric
    and related oceanic and hydrologic sciences. . . ." The misclassification of costs
    occurred because staff who prepared the indirect cost rate proposals did not understand
    applicable federal cost principles.

•   AMS does not have an adequate system to track, document, and certify the labor effort
    of staff who allocate time to both direct and indirect activities. The organization
    proposed as indirect costs unsupported salaries of $806,180, 10 percent of total proposed
    indirect costs over the three-year period under audit. AMS did not properly document
    these labor costs because it did not believe that the dollar amount was significant.

•   AMS maintains an office in Washington, D.C., for federal research, in addition to its
    headquarters in Boston. However, AMS has never calculated a separate indirect cost
    rate for the D.C. office. A single indirect cost rate for organizations that have more than
    one physical location may be inappropriate, because the direct activities performed at
    other locations may not incur indirect costs at the same rate as they do at the
    headquarters.

•   AMS did not submit its indirect cost proposal to NSF for the year ended December 31,
    1999. Instead, it submitted its proposals on a biennial basis. AMS stated that NSF
    orally approved its biennial submission practice.

Non-Material Non-Compliance

•   AMS included unallowable costs for alcoholic beverages in its indirect cost pool.
    because its accounting staff overlooked specific federal regulations stating that such
    costs can not be charged to the federal government.

      We also found two immaterial instances of internal control weakness:




                                                                                             5
Immaterial Internal Control Weaknesses

•   AMS does not have an accounting system that could provide a complete and current
    disclosure of the financial results of its federal awards. Although the system captures
    non-personnel costs by NSF awards, it does not capture personnel costs by awards.
    However, AMS does track personnel expenses, segregated by NSF awards, in an off-line
    spreadsheet. Because it thought such a system was sufficient, AMS then combines both
    on-line and off-line accounts, an error-prone process, in order to report quarterly
    expenditures to NSF.

•   AMS did not maintain vendor invoices (i.e. hotel or banquet bills, restaurant receipts, or
    airline or train tickets) to support credit card receipts totaling $371,668. Further, AMS
    does not require its accounting department to match the credit card charge to an actual
    vendor invoice prior to initiating a payment to verify the validity, accuracy, and
    allowability of the costs, because it thought credit card receipts sufficed.

        To address the compliance deficiencies and internal control weaknesses, we
recommended that the Directors of NSF's Division of Contract, Policy and Oversight (CPO)
and the Division of Grants and Agreements (DGA) require that AMS (1) develop and
implement written policies and procedures for the classification of direct and indirect costs,
and ensure that AMS's future indirect cost rate proposals do not include mission-related
costs in their indirect cost pools; (2) establish a process to track, document, and certify
monthly labor distributions reports for direct and indirect cost activities, (3) develop a
separate indirect cost rate for its Washington, D.C. location, (4) submit indirect cost
proposals to NSF on an annual rather than biennial basis, (5) ensure that its accounting staff
understands and complies with federal requirements regarding the unallowability of certain
costs, (6) segregates all costs by line item and federal award without the use of off-line
spreadsheets, and (7) require that corporate credit card receipts submitted to the accounting
department be supported by actual vendor invoices related to the charges.

Summary of Auditee's Reponses

        With respect to the compliance issues presented in the report, AMS has indicated their
disagreement with the finding regarding the misclassification of $1.4 million of direct
program costs as indirect costs. They indicate that these costs are neither significant nor
necessary to AMS's mission, and, therefore, should be included in the indirect cost pool.
Regarding the adequacy of their timekeeping system, AMS believes they maintain adequate
time records and allocation schedules to support the distribution of labor between direct and
indirect costs. The Auditee is willing, if required by NSF, to establish an off-site indirect
cost rate, but would prefer to discuss this issue further with NSF prior to calculating this rate.
AMS agrees with the findings pertaining to non-submission of their indirect cost proposal on
an annual basis and the need to separately track alcoholic beverages costs.

       With respect to the internal control weaknesses presented in the report, AMS believes
their current system adequately records and tracks grant costs. Regarding the lack of
documentation for credit card charges, AMS now requires the underlying vendor invoices be
provided to support credit card charges.


                                                                                                6
Summary of Auditors' Responses to Auditee's Responses

        With respect to the Auditee's responses pertaining to the compliance issues presented
in the report, we disagree with AMS's comments regarding the misclassification of the $1.4
million of direct program costs as indirect costs and the adequacy of their timekeeping
system. We believe that AMS has missed the point on both of these issues and has offered
erroneous explanations of their positions on both of these findings. Regarding the remaining
three compliance issues, we understand their positions and do not take exception to their
plans for corrective action indicated in their responses.

        With respect to the Auditee's responses pertaining to the internal control weaknesses
presented in the report, we disagree with AMS's comment regarding their belief that their
current system adequately records and tracks grant costs. Salaries and consulting costs
constitute the largest percentage of AMS grant costs, and these costs are not separately
identified by grant in the AMS general ledger, only on Excel worksheets. Regarding their
response to the lack of documentation for credit cards finding, their stated policy requiring
vendor invoices is adequate.




                                                                                           7
                                  EXIT CONFERENCE

       An exit conference was held on January 25, 2002 at the Auditee's office located at 45
Beacon Street, Boston, Massachusetts. The findings on compliance and internal control
along with the adjustments and eliminations related to the indirect cost proposals were
discussed by the following individuals.

For American Meteorological Society:




For M.D. Oppenheim & Company, P.C.:




                                                                                          8
         SECTION II

FINDINGS AND RECOMMENDATIONS




                               9
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


              INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        AND INTERNAL CONTROL

We have audited the summary schedule of over (under) recovered indirect costs
(Schedule A) and the schedules of indirect/direct costs (B-I to B-3) which summarize the
indirect cost proposals prepared by the American Meteorological Society for the years ended
December 31, 1998, 1999 and 2000, and have issued our report thereon dated January 25,
2002. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America, the standards applicable to financial audits contained in
Government Auditing Standards issued by the Comptroller General of the United States and
the National Science Foundation Audit Guide (September 1996).

Compliance

As part of obtaining reasonable assurance about whether the American Meteorological
Society's financial schedules are free of material misstatement, we performed tests of its
compliance with certain provisions of laws, regulations, and policies, noncompliance with
which could have a direct and material effect on the determination of the financial schedules
amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. The results of
our tests disclosed instances of material noncompliance, as reported in the accompanying
Findings and Recommendations on Compliance and the adjustments and eliminations noted
in Schedules C-1 to C-6, that are required to be reported under Government Auditing
Standards and the National Science Foundation Audit Guide.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the American Meteorological Society's
internal control over financial reporting in order to determine our auditing procedures for the
purposes of expressing our opinion on the financial schedules and not to provide assurance
on the internal control over financial reporting. However, we noted certain matters involving
internal control over financial reporting and its operation that we consider to be reportable
conditions. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the American Meteorological
Society's ability to record, process, summarize and report financial data consistent with the
assertions of management in the financial schedules. The reportable conditions noted are
                                                                                              10
described in the accompanying Finding and Recommendation on Internal Control.

A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters in the internal control that
might be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. However, we believe that the
reportable conditions described in our Internal Control findings are not material weaknesses.

This report is intended solely for the information and use of the American Meteorological
Society and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




January 25, 2002




                                                                                           11
                         AMERICAN METEOROLOGICAL SOCIETY
                         Findings and Recommendations on Compliance
                     For the years ended December 31, 1998, 1999, and 2000

                                      Material Deficiencies

    1. Misclassification of Direct Costs as Indirect Costs

       OMB Circular A-122 states that "[d]irect costs are those that can be identified
specifically with a particular final cost objective, i.e., a particular award, project, service, or
other direct activity of an organization." In a broader sense, direct costs are those that can be
specifically identified with an organization's mission. AMS's mission is to promote the
"development and dissemination of information and education on the atmospheric and
related oceanic and hydrologic sciences." Therefore, all costs specifically identifiable with
these activities should be classified as direct costs. In addition, OMB Circular A-122 states
that "the costs of activities performed primarily as a service to members, clients, or the
general public when significant and necessary to the organization's mission must be treated
as direct costs whether or not allowable...."

         For the three years under audit, AMS erroneously included mission-related costs
totaling $1,439,117 or 17 percent of proposed indirect costs, in the indirect cost pool. The
costs consisted of what AMS refers to as "Baseline Funding" and "Education and Special
Initiatives". "Baseline Funding" is funding authorized by the AMS Board of Directors to
utilize up to $100,000 per year from its general operating budget to support education-related
projects. "Education and Special Initiatives" are various projects and programs funded by
AMS investment income to expand and enhance AMS's mission. More specifically, AMS
incurred these costs for various programs and projects to expand its mission, supplement
federal awards (e.g., mandatory cost sharing on NSF awards), and for other program
operations such as credit card collection/processing charges incurred for meeting registration
fees, membership dues, and publications purchases, which benefited members.'

        As a result of the inclusion of direct costs and unallowable or unsupported costs in the
                    2
indirect cost poo1, AMS over-recovered indirect costs totaling $240,245, or 30 percent of
total claimed indirect costs, on ten NSF awards over the three year period ending December
31, 2000. The specific over-recovery of indirect costs was a result of the audited rates being
lower than the proposed rates, as follows: 3

             Year Audited             Proposed Rate                 Audited Rate
                 1998                    34.41%                       29.05%
                 1999                    33.57%                       26.87%
                 2000                    36.16%                       23.79%

       However, since the award letters specified a predetermined indirect cost rate, which is
not subject to adjustment, NSF may not recover its costs. Thus, the primary value of this
finding is to provide NSF with guidance on AMS's future indirect cost rates. For example, if

 ' These bank charges total $127,491 for all three years.
2
    See Schedules C-1 to C-5 for the adjustments and eliminations of direct costs, and
unallowable and unsupported costs that were incorrectly included in the indirect cost pool.
3
   The indirect cost proposals prepared by AMS for the years ended December 31, 1998,
 1999, and 2000 are summarized in Schedule A.
                                                                                            12
AMS's subsequent indirect cost proposals exclude direct costs from the indirect cost pool,
NSF might conclude that the continuation of a predetermined indirect cost rate is warranted.
Alternatively, since AMS's audited rates for years 1998-2000 have fluctuated from 29.05
percent to 23.79 percent, as shown above, NSF might conclude that a predetermined rate 4 is
inappropriate and should be replaced by a maximum provisional rate. 5

        AMS misclassified direct costs as indirect costs because the staff who prepared the
indirect cost rate proposals did not understand federal regulations and mistakenly assumed
that only costs associated with awards and its revenue-generating activities were direct costs.

Recommendation

        We recommend that the Directors of NSF's Divisions of CPO and DGA require AMS
to develop and submit for NSF approval written policies and procedures in conformance with
OMB Circular A-122 for the classification of direct and indirect costs; and ensure that
AMS's future indirect cost rate proposals do not include mission-related costs in their
indirect cost pools.

Auditee's Response

        You have taken costs totaling $1,439,117 over three years, the majority of which we
feel were properly classified as indirect costs, for Baseline Funding and Education and
Special Initiatives, and reclassified these costs as direct. While we would agree that
"Baseline Funding" and "Education and Special Initiatives" do expand and enhance AMS's
mission, AMS does feel strongly that these expenditures are certainly NOT "significant and
necessary" to our organization's mission. Several years ago our membership felt the Society's
reserves were sufficient and adequate, and that earnings on those reserves be expended on
"nice, but not necessary" projects. Most anything an organization does would "expand" its
mission but that expansion for these particular programs is quite minimal to AMS's overall
goals. These expenditures are fairly unique to stated A-122 guidelines for classification of
direct and indirect costs. We request that NSF closely review these expenses and allow them
to be included as indirect costs.

        We take exception to comment on page 3 that the misclassification of costs occurred
because the staff who prepared the indirect cost rate proposals did not understand applicable
federal cost principles. We feel that the comment made about our understanding of the
applicable federal principles is not appropriate and should be removed. We point out that in
1995, when we submitted our indirect cost proposal, which was reviewed and accepted by
NSF and a predetermined indirect cost rate was awarded, the salary allocation between direct
and indirect Baseline Funding and Education and Special Initiatives was reviewed and
accepted as well as the allocation for rent for our Washington, D.C. office. These costs are
now classified 100% direct costs. The situation and circumstances for these have not changed
significantly since 1995.




4
  A predetermined indirect cost rate is generally used when indirect cost rates are fairly
consistent from year to year.
5
  Once negotiated, predetermined indirect cost rates are not subject to adjustment; however,
maximum provisional rates are subject to downward adjustment.
                                                                                               13
	




          In summary, it is our belief that these costs were classified properly as indirect costs
    and should not be classified as direct costs and, as a result, this is not a material non-
    compliance.

            Your last sentence in the second paragraph (page 9) seems to associate credit card
    collection charges with "Baseline Funding" and "Special Initiatives". Naturally, this is a
    separate issue, not funded from investment income. This amount ($127,491) cannot be
    readily identified as a specific charge to a particular final cost objective. Breaking the credit
    card charge out to applicable program operation would be onerous. This seems to AMS to be
    a valid indirect cost. OMB Circular A-122 states that "any direct cost for minor amounts may
    be treated as an indirect cost for reasons of practicability applied where the accounting
    treatment for such costs is consistently applied to all final cost objectives". American
    Meteorological Society would incur a significant amount of additional labor cost to
    breakdown each Master Card or Visa fee to allocate between direct and indirect costs. The
    total charges each year are approximately 1/2 percent (.5%) of the total direct costs and
    would change the indirect cost rate by less than 1 %. American Meteorological Society feels
    that the cost of reviewing each Master Card fee and matching it to specific program cost, is
    an unnecessary task and would create an added burden on the accounting staff, which is
    already at its maximum level of production. This was not the intent of OMB Circular A-122
    and it clearly states that.

            Our position, depending on NSF disposition, would increase the audited rate and
    reduce over-recovery amount. Additionally, we strongly feel the development of written
    policies and procedures is not necessary. We have already addressed most compliance
    related issues while those still open relate to issues of interpretation of OMB A-122.

    Auditors' Response to Auditee's Response

            We disagree with AMS's contention that the direct costs for Baseline Funding are
    "fairly unique" for classification between direct and indirect.      These expenditures are
    definitely for direct costs and not indirect costs. Because, "Baseline Funding" is utilized to
    support AMS education related projects and "Education and Special Initiatives" are projects
    and programs funded by AMS to enhance and expand their mission, and by definition are
    direct costs. Therefore, it would not be appropriate to classify them as indirect costs. In
    addition, placing blame for this error on NSF (since NSF reviewed AMS's indirect cost
    proposals) is not correct. NSF only performed a "desk review" of the indirect cost proposals
    and not an on-site audit as we performed. NSF would not have been able to discern this error
    on their desk review. In any event, this would not mitigate AMS's responsibility to
    understand OMB requirements and follow those requirements when preparing the indirect
    cost proposal.

            Regarding the tracking of credit card charges we believe AMS is missing the point as
    to the identification "...as a specific charge to a particular final cost objective". All of the
    bank charges for credit card processing are for membership dues, meetings and conferences,
    or publications purchases. Therefore, these bank charges are directly attributable to those
    respective AMS departments/functions and should be treated as direct costs in their indirect
    cost proposals, regardless of the amount.




                                                                                                  14
       AMS's contention that breaking out the credit card charges would be "onerous" is not
true. AMS already segregates the credit card charges in a separate account in their general
ledger. Therefore, due to the nature of these bank charges, as discussed in the finding, they
should be off-set against the applicable revenue source (meeting registrations, membership
dues, or publications purchases).

2. Timekeeping System Inadequate

        OMB Circular A-122 specifies that salaries and wages chargeable to an award must
be supported by personnel activity reports. In addition, the Circular states that to support the
allocation of indirect costs to federal awards, activity reports must be maintained for
employees who split their time between both direct and indirect cost activities. In either
case, the reports must reflect "an after-the-fact determination of the actual activity of each
employee," be signed by the employee or the employee's supervisor, and be prepared at least
monthly.

        AMS did not have an adequate system to track, document, and certify the labor effort
of staff who allocated their time to both direct and indirect activities. We found that AMS
could not support its allocation of indirect salary and wages costs amounting to $806,180,
and 10 percent of total proposed indirect costs for the three-year period under audit. Instead
of documenting these indirect salary allocations using monthly reports, AMS arbitrarily
determined the allocation of these amounts once a year when it prepared its annual indirect
cost allocation plan. Further, when asked to provide evidence for these indirect salary
allocations, AMS provided a spreadsheet and stated there was no other written
documentation. Without the reliability of proper documentation or the establishment of a
reasonable allocation policy, AMS's direct cost base and indirect cost pool in proposals
submitted to NSF may be misstated resulting in an improper calculation of the indirect cost
rate for each of the three years.

Recommendation

        We recommend that NSF Directors of CPO and DGA require AMS to establish for
NSF's review and approval a process to track, document, and certify monthly labor
distribution reports documenting the time its employees spend on both its direct and indirect
cost activities.

Auditee's Response

         We had difficulty determining who you included in the $806,180 of indirect staff
labor you say we cannot support. It has been assumed this does not include staff whose time
is clearly 100% indirect (controller, mail center personnel, IS staff, etc.). It does appear that
you have disallowed a portion of an accounting staff member's time (25%) which is clearly
an indirect cost. It is also assumed it included some staff working in grants, Special
Initiatives, Baseline Funding, and those in senior management (working in a program area),
all of whom have had some of their time allocated to indirect salaries.




                                                                                              15
         We provided you with schedules which showed the amount of time spent for staff
working in Baseline Funding and Education with applicable back-up time sheets. We also
provided you with what we feel was a reasonable estimate of the time spent by senior
management for their direct and indirect labor efforts. The indirect portion of their time was
related to their administrative duties, all staff meetings, senior staff meetings, policy
meetings/decisions, and travel, meetings, and time spent in volunteerism to sister/business
related societies. We feel the arbitrary 10% allocation (20% in one case) of their time to indirect
cost pool to be reasonable and fair. We also feel it would be unproductive to require senior
managers to provide time sheets in pursuit of a specific determination of a minimal number of
indirect labor hours.

Auditors' Response to Auditee's Response

     The statement by AMS that "we feel the arbitrary 10% allocation .... to be reasonable
and fair .... and unproductive to require senior managers to provide time sheets" does not
mitigate the OMB Circular A-122 requirement. The critical word in the OMB (Attachment
B, Section 7, m, (2)) is "must." That means that AMS must maintain reports that reflect
after-the-fact documentation of the time apportioned between indirect and direct. There is no
leeway in this requirement. In addition, the allocation percentage during the three years
audited was not only 10% as AMS has stated. The percentage allocated by some employees
was 30%, 40%, 50% and 75%.

     In response to the question of how the $806,180 was computed, the following provides
that information. (The information was obtained from the AMS "Salary Allocation
Worksheet" submitted as part of the indirect cost proposal for each of the three years).

                             Number of                  Allocated
            Year          Employees Allocated            Amount
            1998                  18                    $304,620
            1999                 21                      314,467
            2000                  16                     187,093

                                                        $806,180

        AMS's comments regarding "Baseline Funding and Education" staff timesheets are
erroneous. As previously discussed in finding number 1, these costs are essentially direct
costs. Therefore, the allocation of these staff to the indirect cost pool only includes those
staff in management positions as indicated on AMS's "Salary Allocation Worksheet"
indicated above. Timesheets did not indicate this indirect allocation of actual time spent.

3. No Off-site Indirect Cost Rate

       OMB Circular A-122 recommends that organizations with off-site locations develop a
separate rate(s) during the course of their normal allocation or proposal preparation process,
and if the separate rate(s) differs significantly from the primary indirect cost rate, the
separate rate should also be used. In addition, NSF's Grant Policy Manual requires that
organizations consider establishing both on-and off-site indirect cost rates when awards
involve both on- and off-site activities.


                                                                                               16
        AMS has never developed an off-site indirect cost rate for its Washington, D.C.,
location, although this location serves as the Society's primary site to carry out its mission
related to federal grant operations. Therefore, the work in the D.C. office is significantly
different from AMS's member-focused support activities in Boston. In addition, not all
administrative, financial, and building operations costs occurring at the Boston headquarters
are allocable to federal research awards at the D.C. location. Consequently, AMS's indirect
cost rate may be over or understated depending on whether the D.C. office should have a
lower indirect cost rate than the Boston office, or whether the D.C. office's rate should be
higher than Boston's. AMS should consider establishing both on- and off-site indirect cost
rates for use with NSF awards and submitting the rates to NSF for approval.

Recommendation

        We recommend that the Directors of NSF's CPO and DGA require AMS to develop
an off-site rate for its Washington D.C. office to determine if the indirect cost activities at the
Washington D.C. office differ significantly from those activities at the Boston headquarters.

Auditee's Response

      This would be an extremely difficult task to accomplish and maybe not a meaningful
one. AMS is prepared to attempt this but naturally would rather not. Additional discussion is
needed. We will await a decision from NSF before moving forward with this project.

Auditors' Response to Auditee's Response

     We do not disagree with AMS's statement that the computation of an off-site indirect
cost rate is "an extremely difficult task," however; the computation, we believe, has to be
performed. This is based upon our statement in the finding that the Washington, D.C.
location is the primary site to carry out its mission related to federal grant operations, and
therefore, would provide the basis for a fair allocation of overhead costs.

4. Indirect Cost Proposal Not Submitted Annually

       OMB Circular A-122 specifies "[o]rganizations that have previously established
indirect cost rates must submit a new indirect cost proposal to the cognizant agency within
six months after the close of each fiscal year." NSF is AMS's cognizant agency because it
provides the Society with the largest dollar volume of awards among all federal agencies
providing research and/or education related funding.

       However, AMS did not submit its indirect cost proposal to NSF for the year ended
December 31, 1999. Further, AMS did not submit the proposal for the year ended December
31, 1998, to NSF until June 1, 2000, almost one year overdue. AMS's next most recent
indirect cost proposal submission was sometime in 1996 for the year ended December 31,
1995. Therefore, until our audit, NSF has not reviewed AMS's actual cost information for
five years (1996 to 2000). AMS stated that its standard practice was to submit indirect cost
proposals to NSF every other year.



                                                                                                17
        The annual preparation and submission of an indirect cost proposal for multi-year
awards is critical because conditions often occur that affect the final proposed rate from one
year to the next. For example, AMS's decision to utilize its own funds for mission-related
activities increased the direct cost base but kept the indirect cost pool relatively constant,
thereby reducing the actual indirect cost rate significantly and contributing to over-recovery
of indirect costs on NSF awards. If NSF had been provided with actual cost information on
an annual basis, however, it could have taken more timely action to reduce AMS's indirect
cost recoveries. AMS stated that the reason it did not submit annual indirect cost proposals
is that NSF's Cost Analysis and Audit Resolution Branch approved its biennial submission
practice orally, but not in writing. 6

Recommendation

       We recommend that the Directors of CPO and DGA ensure that AMS submits
indirect cost proposals annually.

Auditee's Response

       AMS has been lax in the preparation and submission of our indirect cost proposal on
a timely basis. We will correct this immediately by preparing the report and submitting it to
NSF annually, within the six-month time requirement.

    Two additional points of clarification:

    1.   Our 2001 proposal has been prepared but submission will be approximately two
         months late as we attempt to further analyze audit findings and incorporate same
         where possible.

    2.   Audit refers to "Biennial Approval" process as if it were a "permanent" agreement
         with NSF. This happened twice and was directly related to situations where cost
         proposals had not been submitted for a two-year period. Permission was requested
         (and verbally approved) to submit just the most recent year's proposal.

Auditors' Response to Auditee's Response

       Since AMS concurs with the finding and recommendation a response is not deemed
necessary.




6
 NSF's Cost Analysis and Audit Resolution Branch does not recall approving this practice
orally or in writing.
                                                                                       18
                        AMERICAN METEOROLOGICAL SOCIETY
                        Findings and Recommendations on Compliance
                   For the Years ended December 31, 1998, 1999, and 2000

                                   Non-Material Deficiency

1. Unallowable Costs Included in the Indirect Cost Pool

        OMB Circular A-122 states that the costs of alcoholic beverages are unallowable.
However, AMS included $2,058 of such costs in its indirect cost pool. AMS included these
costs in its indirect cost pool because its accounting staff overlooked the federal provisions
that stated that these costs are unallowable.

Recommendation

        We recommend that the Directors of NSF's CPO and DGA ensure that AMS
complies with all provisions in OMB Circular A-122 regarding the unallowability of specific
cost categories.

Auditee's Response

        The amount of money spent on alcoholic beverages by the Society is extremely small.
Certainly, no Grant funds are spent on alcohol. Identifying and tracking a separate line item
on our financial statements that equates to about .0002 per cent of annual expenses would
have little effect on our indirect cost rate. In fact, if alcohol expenditures were removed from
our direct cost pool, the indirect cost rate would increase.

        We have started to track and separately book the cost of alcoholic beverages. This
was not done for the 2001 fiscal year. Not doing so actually results in a lower indirect cost
rate but we will await NSF direction on this matter for 2001 rate proposal.

Auditors' Response to Auditee's Response

       Even though the amount is not material, AMS should not include alcoholic beverages
in any direct or indirect billing to a governmental entity. The commencement of the tracking
by AMS will satisfy this requirement.




                                                                                             19
                       AMERICAN METEOROLOGICAL SOCIETY
                    Findings and Recommendations on Internal Control
                  For the Years ended December 31, 1998, 1999, and 2000

                                    Immaterial Weaknesses

1.   Accounting System Does Not Separately Identify Costs per Award

        OMB Circular A-110 requires that awardees have a financial management system that
identifies the source and application of funds for federal activities and that provides accurate,
current and complete disclosure of the financial results of each federal award.

        The AMS accounting system does not provide a current or complete disclosure of the
financial results of its federal awards. Specifically, the system captures non-personnel
related (OTPS) costs, such as equipment, travel, and supplies, by NSF award, but records
salary expenses in the general ledger in a single account with no delineation by federal award
or AMS program. Since AMS does not capture segregated salary costs in its accounting
system, it uses both an on-line accounting system and off-line spreadsheets to report award
expenditures to NSF. Thus, to arrive at total quarterly costs per award for the draw down of
federal funds, AMS accountants manually add OTPS costs from the accounting system to
personnel costs from the off-line spreadsheets. AMS prepares these spreadsheets each
quarter, based on monthly time sheets. We also could not determine the amount of direct
program cost sharing erroneously included in the indirect cost pool, because the accounting
system does not segregate cost sharing costs either.

       AMS believes that its current system adequately serves the organization's recording
and reporting purposes. However, because AMS must proceed through a cumbersome
process using on-line and off-line records, errors are more likely to occur. In addition, AMS
is unable to use its accounting system to readily and separately identify the costs associated
with specific programs by expense account, budget category or in total by federal award.

Recommendation

       We recommend that the Directors of NSF's CPO and DGA ensure that AMS uses its
current ledger system so that all costs, including salary, OSTP, and cost-sharing costs, are
segregated by line item and federal award, thus eliminating the need for offline spreadsheets,
except as supporting documentation for journal entries.

Auditee's Response

AMS has a computerized general leader system which adequately tracks all grant costs,
excluding salaries and consulting. We utilize an Excel program to keep track of these costs
by award. Labor constraints and cost of software upgrade will exceed the benefit, if any, that
can be derived from this comment. System is working properly and our outside auditors have
not had a problem with it. AMS does not feel the system is cumbersome. Section 21:
Standards for financial management systems, (b) (7) states financial management systems

' AMS used baseline finding for its cost sharing, and we have previously recommended
eliminating baseline funding from the indirect cost pool.
                                                                                              20
shall provide "accounting records including cost accounting records that are supported by
source documentation" which we assume would include our Excel schedules.

Auditors' Response to Auditee's Response

     Salaries and consulting constitute the largest percentage of AMS grant costs. Therefore,
AMS's general ledger system is not adequately tracking all grant costs, as stated in their
response. In addition, Excel schedules are not considered source documentation for audit
purposes. The statement by AMS that their system for accounting for grant is not
cumbersome is interesting, in light of the fact that various records, schedules and workpapers
need to be utilized to determine the costs incurred on an individual grant. In addition, off-
line schedules are not an integral part of the organization's official books of account (general
ledger), which contain inherent safeguards as part of the organization's internal controls.

2.   Lack of Documentation for Credit Card Charges

        OMB Circular A-110 requires that award recipients have a financial management
system that provides accounting records supported by source documentation. However,
AMS did not support $371,668 credit card charges with invoice documentation. In addition,
it did not require its accounting department to match credit card charges with associated
invoices prior to approving payment. As a result, we could not determine if the credit card
charges were valid, accurate, or allowable. AMS did not keep invoices to support credit card
charges because it mistakenly thought charge receipts were sufficient.

Recommendation

       We recommend that the Directors of CPO and DGA require AMS for those persons
who submit credit card charges should also provide the underlying vendor invoices for those
charges.

Auditee's Response

     AMS now requires that underlying vendor invoices be provided to support credit card
charges. Several points, some covered in other sections, need to be made as concerns this
finding:

     a.   Many of these invoices were kept, but not included as back-up for the credit card
          bill payment. Documentation/actual detailed bill sometimes filed with applicable
          program cost (meeting, journal, special initiative etc.). Our DC office was also in the
          middle of a move to a new location and document search was difficult. Some
          invoices may also have been misfiled after our audits.

     b.   Scope of audit/time spent on pulling required documentation made it difficult time-
          wise to do a complete search for missing documentation.

     c.   Your scope was 100% of all credit card expenditures. Many were found and they
          had been all properly coded. Disallowing those without original receipt eliminates a
          significant amount of valid indirect costs.



                                                                                              21
    d.   To remove these charges from our indirect cost pool and then include that
         differential in an "over-recovery" figure and a lower "audited indirect cost rate" is
         extremely misleading and projects a less than fair impression.

Auditors' Response to Auditee's Response

       Since AMS "now requires that underlying invoices be provided to support credit card
charges" a response is not deemed necessary.




                                                                                           22
    SECTION III

FINANCIAL SCHEDULES




                      23
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                        INDEPENDENT AUDITORS' REPORT

We have audited the indirect cost proposals, the American Meteorological Society has
proposed as applicable to the National Science Foundation and other federal awards for the
years ended December 31, 1998, 1999 and 2000. These indirect cost proposals, as presented
in the schedules of indirect/direct costs (Schedules B-1 to B-3) and the schedule of
over/(under) recovered indirect costs (Schedule A) are the responsibility of the American
Meteorological Society's management. Our responsibility is to express an opinion on
Schedules A and B-1 to B-3 based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
 1996). Those standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial
schedules are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are
not intended to be a complete presentation of financial position in conformity with
accounting principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material
respects, the indirect cost proposals (Schedules B-1 to B-3) and the resultant over/(under)
recovered indirect costs (Schedule A) for the years ended December 31, 1998, 1999 and
2000, in conformity with the National Science Foundation Audit Guide, NSF Grant Policy
Manual, and on the basis of accounting described in Note 1.




                                                                                        24
National Science Foundation
Office of Inspector General
Arlington, Virginia



In accordance with Government Auditing Standards, we have also issued our report dated
January 25, 2002 on our consideration of the American Meteorological Society's internal
control over financial reporting and on our tests of its compliance with laws and regulations.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

Schedules C-1 to C-4 contain indirect costs in the amount of $1,659,862 that are reductions
to the indirect costs proposed and $1,286,845 that are additions to the direct costs proposed
for the years ended December 31, 1998, 1999 and 2000. The final determination, as to
whether such costs are allowable or unallowable, will be made by the National Science
Foundation. The ultimate outcome of this determination cannot presently be determined.

This report is intended solely for the information and use of the American Meteorological
Society and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




                                           W 4 e e,~ 4                                 / C




January 25, 2002




                                                                                           25
		




                                                            AMERICAN METEOROLOGICAL SOCIETY
                                    Summary Schedule of Over/(Under) Recovered Indirect Costs on National Science Foundation Awards
                                                        For the years ended December 31, 1998, 1999 and 2000




         Comments/Notes:
         MTDC = Modified total direct costs. (Total direct program costs less equipment and participant support costs).
         (A) The amount over recovered may not be recovered by NSF because the award includes a predetermined rate.
         (B) The total direct and indirect costs reflected in AMS's books of account exceeds the total maximum award budget by $1,124.   Q
                                                                                                                                         >r
         See accompanying notes to these financial schedules.                                                                            CD
     N
                                                                          Schedule B-la

                       AMERICAN METEOROLOGICAL SOCIETY
                               Schedule of Indirect Costs
                         For the year ended December 31, 1998




(A) The amounts agree with the indirect cost rate proposal prepared by the American
    Meteorological Society (AMS).      The total costs before auditors' adjustments and
    eliminations agree with AMS's books of account.




See accompanying notes to these financial schedules.
                                                                                    27
                                                                           Schedule B-lb

                       AMERICAN METEOROLOGICAL SOCIETY
                                Schedule of Direct Costs
                         For the year ended December 31, 1998




(A)   The amounts agree with the indirect cost rate proposal prepared by the American
      Meteorological Society (AMS).      The total costs before auditors' adjustments and
      eliminations agree with AMS's books of account.




See accompanying notes to these financial schedules.
                                                                                      28
                                                                          Schedule B-2a

                       AMERICAN METEOROLOGICAL SOCIETY
                               Schedule of Indirect Costs
                         For the year ended December 31, 1999




(A) The amounts agree with the indirect cost rate proposal prepared by the American
    Meteorological Society (AMS).      The total costs before auditors' adjustments and
    eliminations agree with AMS's books of account.




See accompanying notes to these financial schedules.
                                                                                    29
                                                                Schedule B-2b

                       AMERICAN METEOROLOGICAL SOCIETY
                                Schedule of Direct Costs
                         For the year ended December 31, 1999




See accompanying notes to these financial schedules.

                                                                          30
                                                                          Schedule B-3a

                       AMERICAN METEOROLOGICAL SOCIETY
                               Schedule of Indirect Costs
                         For the year ended December 31, 2000




(A) The amounts agree with the indirect cost rate proposal prepared by the American
    Meteorological Society (AMS).      The total costs before auditors' adjustments and
    eliminations agree with AMS's books of account.



See accompanying notes to these financial schedules.
                                                                                     31
                                                                Schedule B-3b

                       AMERICAN METEOROLOGICAL SOCIETY
                               Schedule of Indirect Costs
                         For the year ended December 31, 2000




See accompanying notes to these financial schedules.
                                                                          32
	




                                                                                       Schedule C

                          AMERICAN METEOROLOGICAL SOCIETY
                       Schedule of Auditors' Adjustments and Eliminations
                      For the years ended December 31, 1998, 1999 and 2000


    The amounts as proposed by AMS in their indirect cost proposals for the years ended
    December 31, 1998, 1999 and 2000 (Schedules B-1 to B-3) required various adjustments and
    eliminations to the indirect cost or direct cost pools. These adjustments and/or eliminations
    are presented in Schedules B-1 to B-3. On the following pages in Schedules C-1 to C-6 these
    adjustments and/or eliminations are detailed. Presented below is a brief summary of the type
    of adjustment and/or elimination along with the relevant criteria.

            Adjustment and/or Elimination                               Criteria
    Direct program costs included in the indirect   OMB Circular A-122, Attachment A, Part B
    cost pool for "Baseline Funding" and            (1) states that direct costs are those that can
    "Education and Special Initiatives," which      be identified specifically with a particular
    are direct programs of AMS.                     cost objective. In addition, OMB Circular A-
                                                    122, Attachment A, Part C (1) states indirect
                                                    costs are those that have been incurred for
                                                    common or joint objectives and cannot be
                                                    readily identified with a particular final cost
                                                    objective.

    Bank charges for processing credit card         OMB Circular A-122, Attachment A, Part B
    charges, erroneously included in the indirect   (1) states that direct costs are those that can
    cost pool.       These bank charges are         be identified specifically with a particular
    specifically related to meetings registration   cost objective. In addition, OMB Circular A-
    fees, membership dues and publications,         122, Attachment A, Part C (1) states indirect
    which are direct programs of AMS.               costs are those that have been incurred for
                                                    common or joint objectives and cannot be
                                                    readily identified with a particular final cost
                                                    objective.

    Inadequate source documentation in the form OMB Circular A-110, Subpart C, paragraph
    of a credit card receipt. The credit card 21 (b) (7) requires accounting records that
    receipt was the only documentation are supported by source documentation.
    available, with no actual vendor invoice;
    therefore, determination of the allowability
    of the cost cannot be determined.

    Missing source documentation in the form of OMB Circular A-110, Subpart C, paragraph
    a vendor invoice.       Without the vendor 21 (b) (7) requires accounting records that
    invoice determination of the allowability of are supported by source documentation.
    the cost cannot be determined.


                                                                                                33
	




                                                                              Schedule C (Cont.)

                          AMERICAN METEOROLOGICAL SOCIETY
                    Schedule of Auditors' Adjustments and Eliminations (Cont.)
                      For the years ended December 31, 1998, 1999 and 2000


            Adjustment and/or Elimination                              Criteria
    Books and educational materials (which are     OMB Circular A-122, Attachment A, Part B
    direct costs) were erroneously included in     (1) states that direct costs are those that can
    indirect costs.                                be identified specifically with a particular
                                                   cost objective. In addition, OMB Circular A-
                                                   122, Attachment A, Part C (1) states indirect
                                                   costs are those that have been incurred for
                                                   common or joint objectives and cannot be
                                                   readily identified with a particular final cost
                                                   objective.

    Applicable credits for fellowships were not    OMB Circular A-122, Attachment A, Part A
    deducted from the direct cost pool.            (5) states applicable credits refers to those
                                                   receipts, or reductions of expenditures which
                                                   operate to offset or reduce expense items that
                                                   are allocable to awards as direct or indirect
                                                   costs.

    The cost of alcoholic beverages that were OMB Circular A-122, Attachment B, item 2,
    included in indirect and direct costs.    states that the cost of alcoholic beverages
                                              are unallowable.




    Auditee's Response

    Baseline Funding and Education and Special Initiatives

    Disagree with your findings - please refer to response "Findings Number 1 ".

    Bank Char~'es

    Strongly disagree - while all credit card bank charges relate to direct programs of AMS they
    are not readily identifiable to a specific program. Please refer to response to findings.




                                                                                               34
                                                                             Schedule C (Cont.)

                        AMERICAN METEOROLOGICAL SOCIETY
                  Schedule of Auditors' Adjustments and Eliminations (Cont.)
                    For the years ended December 31, 1998, 1999 and 2000

Auditee's Response (Cont.)

Inadequate Source Documentation

Source documentation for many of the credit card expenses were provided and all we believe
were properly allocated to correct indirect or direct cost base. While we do need to do better
in this area, your removal of 100% of indirect cost related expenditures from the indirect
pool is misleading and unreasonable.

Missing Vendor Invoices

The scope of your audit, imposed on a small accounting department, went way beyond "fair
and reasonable" as we discussed during your audit. It was also our busiest time of the year. In
addition, during the several years covered in your audit, we experienced significant staff
shortages (maternity leave, grant person left, replacement had to be let go) and yet we still
found about 99% of requested invoices. Though minor in total dollars, it seems unreasonable
that you had to remove those few missing invoices from indirect cost base.

Books and Educational Material

The inclusion of these direct costs in our indirect costs was a clerical error on our part in the
preparation of our report.

Fellowship Not Deducted from Direct Cost Pool

We are familiar with OMB Circular A- 122, Attachment A, Part A (5) and fellowship credits
have been deducted from recent proposals.

Cost of Alcoholic Beverages

Please see response to this in earlier section of this report.

Auditors' Response to Auditee's Response

       AMS as part of their response to resolve any of the adjustments and eliminations
provided no source documentation, therefore, the amounts remain as stated.




                                                                                              35
              AMERICAN METEOROLOGICAL SOCIETY
    Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                  For the year ended December 31, 1998




                                                                          C)
                                                                          C

                                                                          ¢.



                                                                          n
                                                                          CD



w
             AMERICAN METEOROLOGICAL SOCIETY
    Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                 For the year ended December 31, 1998




                                                                        1D


                                                                        cD


W
                                                                        n
J
                                                                        N
                  AMERICAN METEOROLOGICAL SOCIETY
     Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                   For the year ended December 31, 1999




                                                                           C>
                                                                           C




                                                                           CD

w
00                                                                         w
                                                                           9
             AMERICAN METEOROLOGICAL SOCIETY
    Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                 For the year ended December 31, 1999




                                                                        0
                                                                        N

                                                                        CD
                                                                        n
                                                                        41
w
              AMERICAN METEOROLOGICAL SOCIETY
    Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                  For the year ended December 31, 2000




                                                                          C)
                                                                          0
                                                                          ¢.

0                                                                         CD
                                                                          n
               AMERICAN METEOROLOGICAL SOCIETY
      Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                   For the year ended December 31, 2000




                                                                          C




                                                                          n
                                                                          CD


-46
                      AMERICAN METEOROLOGICAL SOCIETY
                                Notes to Financial Schedules
                  For the years ended December 31, 1998, 1999 and 2000


1. Summary of Significant Accounting Policies:

The accompanying financial schedules have been prepared in conformity with National
Science Foundation (NSF) instructions. Schedules B-I to B-3 have been prepared from the
indirect cost proposals prepared by the American Meteorological Society and Schedule A,
has been prepared based upon the results of the audit of Schedules B-I to B-3. The
schedules do not present the complete financial position of the American Meteorological
Society. In accordance with NSF instructions, there are no schedules of financial position,
statement of activities or statement of cash flows.

2.   Income Taxes:

The American Meteorological Society is a private nonprofit corporation, incorporated under
the laws of the Commonwealth of Massachusetts. The American Meteorological Society is
exempt from income taxes under Section 501(c)(3) of the Internal Revenue Code. It is also
exempt from Commonwealth of Massachusetts franchise or income tax.




                                                                                        42
        SECTION IV

SUPPLEMENTARY INFORMATION




                            43
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230



   INDEPENDENT AUDITORS' REPORT ON SUPPLEMENTARY INFORMATION


Our report on our audit of the schedule of over/(under) recovered indirect costs and
schedules of indirect and direct costs (the basic financial schedules) of the American
Meteorological Society for the years ended December 31, 1998, 1999 and 2000, appears in
Schedules A and Schedules B-1 to B-3. The audit was made for the purpose of forming an
opinion on the basic financial schedules taken as a whole. The supplementary information
presented in Schedules D-1 to D-10 and Schedule E are presented for purposes of
supplementary analysis and are not a required part of the basic financial schedules. The
supplementary information has not been subjected to the auditing procedures applied in the
audit of the basic financial schedules and, accordingly, we express no opinion on them.




                                         -11~                      4- dl~a47 -~ / C




January 25, 2002




                                                                                       44
                                                                              Schedule D-1

                 National Science Foundation Award Number ESI-9153823
                                        Awarded To
                              American Meteorological Society
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                  For the period January 1, 1998 to February 29, 2000 (A)
                                            Final
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                      45
                                                                             Schedule D-2

                National Science Foundation Award Number ESI-9353370
                                       Awarded To
                             American Meteorological Society
                Detailed Schedule of Over/(Under) Recovered Indirect Costs
                 For the period January 1, 1998 to December 31, 1999 (A)
                                           Final
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                      46
                                                                            Schedule D-3

               National Science Foundation Award Number DUE-9353910
                                      Awarded To
                            American Meteorological Society
               Detailed Schedule of Over/(Under) Recovered Indirect Costs
                   For the period January 1, 1998 to June 30, 1998 (A)
                                          Final
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                     47
                                                                            Schedule D-4

               National Science Foundation Award Number ATM-9402990
                                      Awarded To
                            American Meteorological Society
               Detailed Schedule of Over/(Under) Recovered Indirect Costs
                 For the period January 1, 1998 to August 31, 1999 (A)
                                          Final
                                      (Unaudited)




See accompanying independent auditors' report.
                                                                                     48
                                                                                Schedule D-5

                   National Science Foundation Award Number ESI-9453205
                                          Awarded To
                                American Meteorological Society
                   Detailed Schedule of Over/(Under) Recovered Indirect Costs
                    For the period January 1, 1998 to December 31, 2000 (A)
                                              Interim
                                          (Unaudited)




See accompanying independent auditors' report.

                                                                                   49
                                                                            Schedule D-6

               National Science Foundation Award Number ATM-9714415
                                      Awarded To
                            American Meteorological Society
               Detailed Schedule of Over/(Under) Recovered Indirect Costs
                   For the period January 1, 1998 to June 30, 1998 (A)
                                          Final
                                       (Unaudited)




See accompanying independent auditors' report.

                                                                                     50
                                                                              Schedule D-7

                 National Science Foundation Award Number DUE-9752416
                                        Awarded To
                              American Meteorological Society
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                 For the period February 15, 1998 to December 31, 2000 (A)
                                          Interim
                                        (Unaudited)




See accompanying independent auditors' report.

                                                                                    51
                                                                            Schedule D-8

               National Science Foundation Award Number ATM-9806934
                                       Awarded To
                            American Meteorological Society
               Detailed Schedule of Over/(Under) Recovered Indirect Costs
                   For the period April 15, 1998 to March 31, 1999 (A)
                                           Final
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                     52
                                                                              Schedule D-9

                 National Science Foundation Award Number ESI-9819359
                                        Awarded To
                              American Meteorological Society
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                   For the period May 1, 1999 to December 31, 2000 (A)
                                           Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                    53
                                                                              Schedule D- 10

                 National Science Foundation Award Number ATM-9906174
                                        Awarded To
                               American Meteorological Society
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                 For the period September 15, 1999 to December 31, 2000 (A)
                                           Interim
                                         (Unaudited)




See accompanying independent auditors' report.
                                                                                     54
	




                                                                                         Schedule E

                              AMERICAN METEOROLOGICAL SOCIETY
                            Listing of NSF Awards Active During Audit Period
                                    Not Affected by Indirect Cost Audit
                          For the years ended December 31, 1998, 1999 and 2000
                                               (Unaudited)


    There were seven NSF awards that were active during the years ended December 31, 1998,
    1999 and 2000, that did not include:

          •
          •
              Indirect costs incurred or billed to NSF on an FCTR; or,
              Indirect costs based upon the application of a rate.

    The listing below presents those awards along with an explanation for their exclusion from
    this audit.

          NSF Award Number                    Award Period                 Explanation

              ATM-9731851                   01/01/98-12/31/01                  (A)
              ATM-9816532                   01/01/99-12/31/99                  (B)
              ATM-9819601                   03/01/99-02/29/00                  (A)
              ATM-9906843                   05/15/99-10/31/00                  (A)
              ATM-9909215                   09/01/99-08/31/00                  (A)
              ATM-0086289                   07/01/00-06/30/01                  (A)
              ATM-0003193                   07/01/00-12/31/01                  (A)

    (A)       No indirect costs budgeted/approved or claimed under this award.

    (B)       A flat amount of indirect costs in lieu of an amount based upon a rate.




                                                                                                55
    SECTION V


AWARDEE'S RESPONSE




                     56
                    AMERICAN METEOROLOGICAL SOCIETY
                 45 BEACON STREET, BOSTON, MASSACHUSETTS 02108 - 3693                          U.S.A.

                    TEL 6 17-227-2425


                                                             THESE PAGES HAVE
                    FAX: 6 17-742-87 18
                                      8
                    E-May:   amsinfo@ametsoc.org


                                                              BEEN REDACTED
 July 30, 2002



 M.D. Oppenhein and Company, P.C.
 485 U.S. Highway One - Building C
 P.O. Box 4100
 Iselin, New Jersey 08830-4100

 Dear

Thank you for your final audit report on the financial and compliance audit of the indirect
costs of the American Meteorological Society (AMS) for the years ended December 31,
1998, 1999 and 2000. We thank you also for the thorough and professional manner in
which you conducted that audit. Your staff (and you) kept us informed and up-to-date on
findings and the ongoing status of our audit. Your comments and recommendations
during your on-site work were appreciated.

We do not agree with some of the proposed audit findings and some of your
recommendations for compliance. While AMS does have some compliance issues that
need and will be addressed, we do take some exception to the implications, and the total
dollar effect, as presented in your "summary of audit results" (page 3).

A few general comments on that summary before responding to specific findings:

a.    Over - recovery/240K is extremely misleading. While your audit
     procedures/guidelines necessitates removing significant dollars from stated indirect
     costs, those reductions for inadequate source documentation and missing
     documentation most assuredly constituted indirect costs; a significant amount of bank
     charges cannot be readily identified with a specific direct cost center and should be
     allowable as indirect costs; and some alcohol expenditures, while minor, are also still
     in our direct cost base. All of these items would increase your audited indirect cost
     rate.

b. "... Misclassification ... staff ... did not understand" - while staff may not have
    memorized OMB Circular A-122, it is kept close at hand for
    reference/review/understanding of federal cost principles. We still feel that our
    "Baseline Funding" and "Special Initiative" expenditures should be includable in our
    indirect cost base. A-122 states "...when significant and necessary to the




       SERVING THE ATMOSPHERIC AND RELATED OCEANIC AND HYDROLOGIC SCIENCES SINCE 1919
     organization's mission...". AMS considers these expenditures to be neither
     significant nor necessary to our mission. We could eliminate all of these initiatives
     with no major effect on our mission. These costs also directly and significantly inflate
     the over-recovery amount.

c.   A significant portion of the 806K of. indirect salaries represents staff whose time is
      100% attributable to indirect costs; tracked via time sheets (grant personnel with split
     functions); or reasonably (though arbitrarily) allocated to indirect costs.

We have some additional issues but these will be addressed in our specific responses to
individual findings. Once again, the Society greatly appreciates your
assistance/recommendations in helping improve our compliance with federal reporting
requirements.


Sincerely,
                                        Findings
                  1. Misclassification of Direct Costs as Indirect Costs
                                   Page 9 - Number 1



 You have taken costs totaling $1,439,117 over three years, the majority of which we feel
were properly classified as indirect costs, for Baseline Funding and Education and
Special Initiatives, and reclassified these costs as direct. While we would agree that
 "Baseline Funding" and "Education and Special Initiatives" do expand and enhance
AMS's mission, AMS does feel strongly that these expenditures are certainly NOT
 "significant and necessary" to our organization's mission. Several years ago our
membership felt the Society's reserves were sufficient and adequate, and that earnings on
those reserves be expended on "nice, but not necessary" projects. Most anything an
organization does would "expand" its mission but that expansion for these particular
programs is quite minimal to AMS 's overall goals. These expenditures are fairly unique
to stated A-122 guidelines for classification of direct and indirect costs. We request that
NSF closely review these expenses and allow them to be included as indirect costs.

We take exception to comment on page 3 that the misclassification of costs occurred
because the staff who prepared the indirect cost rate proposals did not understand
applicable federal cost principles. We feel that the comment made about our
understanding of the applicable federal principles is not appropriate and should be
removed. We point out that in 1995, when we submitted our indirect cost proposal, which
was reviewed and accepted by NSF and a predetermined indirect cost rate was awarded,
the salary allocation between direct and indirect Baseline Funding and Education and
Special Initiatives was reviewed and accepted as well as the allocation for rent for our
Washington, D.C. office. These costs are now classified 100% direct costs. The situation
and circumstances for these have not changed significantly since 1995.

In summary, it is our belief that these costs were classified properly as indirect costs and
should not be classified as direct costs and, as a result, this is not a material non-
compliance.

 Your last sentence in the second paragraph (pg. 9) seems to associate credit card
collection charges with "Baseline Funding" and "Special Initiatives". Naturally, this is a
separate issue, not funded from investment income. This amount ($127,491) cannot be
readily identified as a specific charge to a particular final cost objective. Breaking the
credit card charge out to applicable program operation would be onerous. This seems to
AMS to be a valid indirect cost. OMB Circular A-122 states that "any direct cost for
minor amounts may be treated as an indirect cost for reasons of practicability applied
where the accounting treatment for such costs is consistently applied to all final cost
objectives". American Meteorological Society would incur a significant amount of
additional labor cost to breakdown each master card or visa fee to allocate between direct
and indirect costs. The total charges each year are approximately 1/2 percent (.5%) of the
total direct costs and would change the indirect cost rate by less than 1%. American
Meteorological Society feels that the cost of reviewing each Master Card fee and
matching it to specific program cost, is an unnecessary task and would create an added
burden on the accounting staff, which is already at its maximum level of production. This
was not the intent of OMB Circular A-122 and it clearly states that.

Our position, depending on NSF disposition, would increase the audited rate and reduce
over-recovery amount. Additionally, we strongly feel the development of written policies
and procedures is not necessary. We have already addressed most compliance related
issues while those still open relate to issues of interpretation of OMB A-122.
                            2. Timekeeping System Inadequate
                                   Page 11- Number 2



We had difficulty determining who you included in the $806,180 of indirect staff labor
you say we cannot support. It has been assumed this does not include staff whose time is
clearly 100% indirect (controller, mail center personnel, IS staff, etc.). It does appear that
you have disallowed a portion of an accounting staff member's time (25%) which is
clearly an indirect cost. It is also assumed it included some staff working in grants,
Special Initiatives, Baseline Funding, and those in senior management (working in a
program area), all of whom have had some of their time allocated to indirect salaries.

We provided you with schedules which showed the amount of time spent for staff
working in Baseline Funding and Education with applicable back-up time sheets. We also
provided you with what we feel was a reasonable estimate of the time spent by senior
management for their direct and indirect labor efforts. The indirect portion of their time
was related to their administrative duties, all staff meetings, senior staff meetings, policy
meetings/decisions, and travel, meetings, and time spent in volunteerism to
sister/business related societies. We feel the arbitrary 10% allocation (20% in one case)
of their time to indirect cost pool to be reasonable and fair. We also feel it would be
unproductive to require senior managers to provide time sheets in pursuit of a specific
determination of a minimal number of indirect labor hours.
                           3. No Off - Site Indirect Cost Rate
                                  Page 12 - number 3



This would be an extremely difficult task to accomplish and maybe not a meaningful one.
AMS is prepared to attempt this but naturally would rather not. Additional discussion is
needed. We will await a decision from NSF before moving forward with this project.
                     Indirect Cost Proposal Not Submitted Annually
                                   Page 13 - Number 4



AMS has been lax in the preparation and submission of our indirect cost proposal on a
ti mely basis. We will correct this immediately by preparing the report and submitting it to
NSF annually, within the six-month time requirement.

Two additional points of clarification:

1) Our 2001 proposal has been prepared but submission will be approximately two
   months late as we attempt to further analyze audit findings and incorporate same
   where possible.


2) Audit refers to "Biennial Approval" process as if it were a "permanent" agreement
   with NSF. This happened twice and was directly related to situations where cost
   proposals had not been submitted for a two-year period. Permission was requested
   (and verbally approved) to submit just the most recent year's proposal.
                              Non - Material Deficiency
                  Unallowable Costs Included in the Indirect Cost Pool
                                 Page 14 - Number 1



The amount of money spent on alcoholic beverages by the Society is extremely small.
Certainly, no Grant funds are spent on alcohol. Identifying and tracking a separate line
item on our financial statements that equates to about .0002 per cent of annual expenses
would have little effect on our indirect cost rate. In fact, if alcohol expenditures were
removed from our direct cost pool, the indirect cost rate would increase.

We have started to track and separately book the cost of alcoholic beverages. This was
not done for the 2001 fiscal year. Not doing so actually results in a lower indirect cost
rate but we will await NSF direction on this matter for 2001 rate proposal.
                              Immaterial Weakness
          Accounting System Does Not Separately Identify Costs Per Award
                               Page 15 - Number 1



AMS has a computerized general leader system which adequately tracks all grant costs,
excluding salaries and consulting. We utilize an Excel program to keep track of these
costs by award. Labor constraints and cost of software upgrade will exceed the benefit, if
any, that can be derived from this comment. System is working properly and our outside
auditors have not had a problem with it. AMS does not feel the system is cumbersome.
Section 21: Standards for financial management systems, (b) (7) states financial
management systems shall provide "accounting records including cost accounting records
that are supported by source documentation" which we assume would include our Excel
schedules.
                    2. Lack of Documentation for Credit Card Charges
                                   Page 16 - Number 2



AMS now requires that underlying vendor invoices be provided to support credit card
charges. Several points, some covered in other sections, need to be made as concerns this
finding:

a.   Many of these invoices were kept, but not included as back-up for the credit card bill
     payment. Documentation/actual detailed bill sometimes filed with applicable program
     cost (meeting, journal, special initiative etc.). Our DC office was also in the middle of
     a move to a new location and document search was difficult. Some invoices may also
     have been misfiled after our audits.

b.   Scope of audit/time spent on pulling required documentation made it difficult time-
     wise to do a complete search for missing documentation.

c.   Your scope was 100% of all credit card expenditures. Many were found and they had
     been all properly coded. Disallowing those without original receipt eliminates a
     significant amount of valid indirect costs.

d. To remove these charges from our indirect cost pool and then include that differential
   in an "over-recovery" figure and a lower "audited indirect cost rate" is extremely
   misleading and projects a less than fair impression.
                                Schedule C and C -1 to C - 6
                                        Page 27-34



 1. Baseline Funding and Education and Special Initiatives

    Disagree with your findings - please refer to response "Findings - #1".

 2. Bank Charges

    Strongly disagree - while all credit card bank charges relate to direct programs of
    AMS they are not readily identifiable to a specific program. Please refer to response
    to findings.

 3. Inadequate Source Documentation

    Source documentation for many of the credit card expenses were provided and all we
    believe were properly allocated to correct indirect or direct cost base. While we do
    need to do better in this area, your removal of 100% of indirect cost related
    expenditures from the indirect pool is misleading and unreasonable.

4. Missing Vendor Invoices

   The scope of your audit, imposed on a small accounting department, went way
   beyond "fair and reasonable" as we discussed during your audit. It was also our
   busiest time of the year. In addition, during the several years covered in your audit,
   we experienced significant staff shortages (maternity leave, grant person left,
   replacement had to be let go) and yet we still found about 99% of requested invoices.
   Though minor in total dollars, it seems unreasonable that you had to remove those
   few missing invoices from indirect cost base.

5. Books and Educational Material

   The inclusion of these direct costs in our indirect costs was a clerical error on our part
   in the preparation of our report.

6. Fellowship Not Deducted from Direct Cost Pool

   We are familiar with OMB Circular A - 122, Attachment A, Part A (5) and
   fellowship credits have been deducted from recent proposals.

7. Cost of Alcoholic Beverages

   Please see response to this in earlier section of this report.
